                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: AI0070048                                                                       Page 1 of 1



                In the course of another case,l we learned that an ad hoc reviewer2 had shared a confidential
         NSF proposae with his postdoctoral associate4 thereby breaching the confidentiality of the review
         process. When we contacted him, the reviewer admitted to sharing the proposal with his postdoc
         because the postdoc had particular expertise with the experimental procedures proposed. The
         reviewer admitted to not obtaining the required permission of the NSF program officer before
         sharing the proposal. There is no evidence to suggest that the reviewer committed any other
         inappropriate acts.

                   We reminded the reviewer of the importance of confidentiality in the peer review process.

                   Accordingly, this case is closed.




NSF OIG Form 2 (11102)
